                                     Department of the Interior 
                                     Office of Inspector General 
                                                                 
                                                                      
                                                                      
                                                                      
                 AUDIT REPORT 
                        

                                    
                     U.S. Fish and Wildlife Service 
                  Federal Assistance Program Grants 
                    Awarded to the State of Maine,  
              Department of Inland Fisheries and Wildlife,  
               From July 1, 2003, Through June 30, 2005 
 
 
 
 
 
 
 
 
 
 
 
 
    Report No. R­GR­FWS­0016­2005                    December 2007
                United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                            12030 Sunrise Valley Drive, Suite 230
                                    Reston, VA 20191

                                                                            December 11, 2007



                                   AUDIT REPORT

Memorandum

To:        Director
           U.S Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
           Awarded to the State of Maine, Department of Inland Fisheries and Wildlife,
           From July 1, 2003, Through June 30, 2005 (No. R-GR-FWS-0016-2005)

        This report presents the results of our audit of costs incurred by the State of Maine
(State), Department of Inland Fisheries and Wildlife (Department), under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Federal
Assistance Program for State Wildlife Restoration and Sport Fish Restoration (Federal
Assistance Program). The audit included claims totaling approximately $17.3 million on 41
grants that were open during State fiscal years (SFYs) ended June 30 of 2004 and 2005 (see
Appendix 1). The audit also covered Department compliance with applicable laws, regulations,
and FWS guidelines, including those related to the collection and use of hunting and fishing
license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we developed findings pertaining to license revenue, the
reporting of program income, procedures for documenting in-kind (noncash) contributions,
documentation to support drawdowns, and the accuracy of both land records and the number of
hunting and fishing license holders the Department reported to FWS.

       We provided a draft report to FWS and the Department. The Department’s response was
prepared by officials from the State’s Natural Resources Service Center (NRSC). We
summarized the NRSC and FWS Region 5 responses after each recommendation, as well as our
comments on the responses. We list the status of each recommendation in Appendix 3.
      Please respond in writing to the findings and recommendations included in this report by
March 10, 2008. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Bob Leonard, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                               2
                                                Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $17.3 million on the 41 grants that were
open during SFYs ended June 30 of 2004 and 2005 (see Appendix 1). We reported only on the
conditions that existed during this audit period. We performed our audit at Department
headquarters in Augusta, ME. We also visited one regional office, two fish hatcheries, two
wildlife management areas, three water access sites, and a wildlife park (see Appendix 2). We
performed the audit to supplement, not replace, the audits required by the Single Audit Act
Amendment of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and


1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          3
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

To the extent possible, we relied on the work of the Office of the State Controller and the State
Department of Audit, which helped us to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On January 14, 2003, we issued “Final Advisory Report on Costs Claimed by the State of Maine
Department of Inland Fisheries and Wildlife Under Federal Aid Grants from the U.S. Fish and
Wildlife Service from July 1, 1996 through June 30, 1998” (Report No. 2003-E-0009). We
followed up on all recommendations in the report and found that the Department of Interior,
Office of the Assistant Secretary for Policy, Management and Budget considered them to be
resolved and implemented.




                                                 4
We reviewed Maine’s Comprehensive Annual Financial Reports and Single Audit Reports for
SFYs 2004 and 2005. None of these reports contained any findings that would directly impact
the Department’s Federal Assistance Program grants or programs under the grants. In addition,
the Department’s Federal Assistance Programs were not selected for compliance testing in either
the SFYs 2004 or 2005 Single Audits.




                                               5
                                      Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Risk for Diversion of License Revenues. The Department lacks sufficient controls to
       ensure it expends license revenue on eligible activities.

       Unreported Program Income. The Department did not account for program income
       earned under its Regional Wildlife Management Project Grant in accordance with federal
       regulations or State and FWS policies.

       Inadequate Controls for Documenting In-Kind Contributions. The Department could
       not readily demonstrate the accuracy of the numbers used to calculate the value of hours
       donated by volunteers under Federal Assistance Program grants.

       No Documentation to Support Drawdowns. The Department was unable to provide
       documentation to demonstrate that it incurred the federal and State share of costs before
       requesting reimbursement for (drawing down) the federal share of costs.

       Inaccurate Real Property Records. As a result of deficiencies in the Department’s land
       records, the Department has no assurance that land purchased with federal funds is used
       for its originally intended purpose.

       Duplicate and Invalid License Holders Not Removed From Certification. The
       Department used adjustment factors from an outdated survey to eliminate potential
       duplicate license holders from its certifications, and the certifications did not include
       adjustments to eliminate all lifetime licensees who no longer remain license holders.

Findings and Recommendations

A.     Risk for Diversion of License Revenues

       The Department earns revenue from the sale of hunting and fishing licenses. The
       Acts and related regulations require the State to use such license revenue for the
       administration of the State fish and wildlife agency. However, legislation that the
       State passed to assent to the provisions of the Acts may not be adequate to prevent the
       diversion of license revenue to ineligible activities. Additionally, the Department
       does not have adequate controls in place to ensure it expends all of its license revenue
       on fish and wildlife program activities.



                                                 6
         The Code of Federal Regulations (50 C.F.R. § 80.3) allows a State to participate in the
         benefits of the Acts only after it passes legislation which assents to the provisions of the
         Acts and prohibits the diversion of hunting and fishing license revenue to purposes other
         than administration of the fish and wildlife agency. Section 80.4 also requires States to
         expend license revenue only on fish and wildlife activities and specifies that license
         revenue includes interest earned on proceeds from license sales. The FWS Manual
         (522 FW 2.4, Grantee Administration) requires that States monitor legislation that may
         modify the basic assent legislation or that may divert license fees.
         The State Legislature passed assent legislation.2 However, in 1989, the State Legislature
         passed additional legislation that directs the Department to deposit funds from license
         sales as undedicated revenue to the Treasury’s general fund. The statute3 does not
         specifically prohibit the diversion of license revenues to non-fish and wildlife program
         activities. As a result, the 1989 statute may leave the State in noncompliance with the
         assent legislation requirements of the Acts.
         Additionally, the Department does not adequately track expenditures of license revenues.
         As required by the 1989 legislation, the Department deposits license revenue into the
         Treasury’s general fund. Each year, the Department’s appropriation includes an
         amount equal to the license revenues collected
         the prior year plus the interest earned on those        Examples of Adequate Controls
         revenues. The appropriation also includes           Some States have a dedicated fund for
         funding for non-fish and non-wildlife               license revenues to allow for tracking
         activities, such as licensing, registering, and     of license revenue and expenditures.
         enforcing laws related to all-terrain vehicles,
                                                             Other States’ accounting systems track
         boats, and snowmobiles.4 The accounting             the expenditure of license revenue and
         system does not differentiate between               can calculate eligible expenditures
         expenses paid for with license revenue and          from the accounting system.
         those paid for with other funds.
         The Department’s inability to track the source of revenue used to pay for expenses
         leaves it vulnerable to diverting license revenue to unallowable purposes. We
         reviewed documentation provided by the Department to determine whether it
         expended license revenue appropriately. Based on our review, we notified the
         Department and FWS that the Department may have inappropriately spent $176,402
         in license revenue. Department officials subsequently provided us with additional
         information, and we concluded that they did not divert license revenues in SFY2004.
         However, the effort involved in demonstrating there was no diversion of license
         revenue indicates that the Department lacks adequate controls to ensure it expends the
         revenue as required. We therefore believe that action needs to be taken to ensure that the
         expenditures for eligible fish and wildlife program activities meet or exceed the
         amount of license revenues collected.



2
  The legislation was codified in the Maine Revised Statutes Annotated (MRSA), Title 12, Section 10106, Item 1.
3
  MRSA, Title 12, Section 10801, Item 4.
4
  Processing hunting and fishing licenses is an eligible use of hunting and fishing license revenues, while licensing
all-terrain vehicles, boats, and snowmobiles is not an eligible use.

                                                          7
At our exit conference, Department officials told us that they would continue to work
with NRSC, which is responsible for the Department’s accounting function, to ensure that
they track expenditures sufficiently. Officials also told us they believe that the deposit of
license revenues into the general fund is appropriate if the revenues are used for the
purposes allowed by the Acts. The FWS (Region 5) Federal Assistance Chief told us that
he would request legal advice from the Solicitor’s Office and work with the Department
to determine if the 1989 statute meets the intent of the Acts’ prohibition against the
diversion of license revenues.

Recommendations

We recommend that FWS:

1. require the Department to develop, at a minimum, a formal accounting procedure and
   perform it at the end of each fiscal year to demonstrate that the license revenues
   collected were spent only for eligible fish and wildlife program activities and to
   restore any funding that is determined was spent inappropriately; and

2. work with the Solicitor’s Office and the Department to determine if the 1989 statute
   meets the intent of the Restoration Acts’ prohibitions against the diversion of license
   revenues. If the statute does not meet the intent of the Acts, then FWS should request
   that the Department seek legislation to amend the statute.

NRSC Response

To ensure the Department does not divert license revenues to unallowable purposes,
NRSC officials stated that the Department and NRSC would implement and maintain
new procedures. These procedures will include preparing, on a quarterly basis,
spreadsheets that separate the restricted license revenue and expenditures from
unrestricted revenue and expenditures. NRSC gave a targeted completion date of
June 30, 2008.

FWS Response

FWS regional officials concurred with the findings and recommendations and stated that
they would work with the State to develop a corrective action plan that will resolve all of
the findings.

OIG Comments

FWS regional management concurs with the recommendations and NRSC officials
indicated that they are taking action to address the first recommendation and have a
targeted completion date for the action. However, we note that NRSC did not address the
second recommendation. The corrective action plan should contain:

   •   actions taken or planned to address both recommendations A.1 and A.2,



                                         8
        •   targeted completion dates,

        •   titles of officials responsible for the specific actions taken or planned to resolve
            and implement the recommendations, and

        •   verification that FWS officials reviewed and approved the actions taken or
            planned by the Department and NRSC.

B.   Unreported Program Income

     Federal regulations allow grantees to earn income from grant-supported activities, but
     require grantees to account for the “program income” using an agreed upon method.
     The Department earned, but did not report, program income under Regional Wildlife
     Management Project Grant W-81-D-19. The grant funded, in part, the Department’s
     land management activities.

     In reporting program income, the Department must comply with several federal, State,
     and FWS requirements, as described in Table 1.
                      Table 1. Program Income Reporting Requirements

          GOVERNING
         REQUIREMENT                                       DESCRIPTION

      43 C.F.R. § 12.65         Program income is gross income a grantee receives that is directly
      (Federal Regulation)      generated by a grant-supported activity or earned only from the grant
                                agreement.

                                Grantees ordinarily deduct program income from total grant costs to
                                determine the net allowable costs. With FWS approval, the grantee
                                may: 1) add program income to the project funds (additive method) or
                                2) use it to meet the matching requirement.

      Requirements From         In 2002, the State Legislature allowed the Department to establish a
      the State Legislature     special account, the resources management land account, to track
                                revenues and expenses from the Department’s land management
                                operations.

                                In allowing the Department to create this account, the State stipulated
                                that revenues received from land management activities—such as
                                timber sales, land leases, and miscellaneous fees—be dedicated to the
                                Department’s Wildlife Division for activities conducted on its
                                wildlife management areas.




                                                9
     GOVERNING
    REQUIREMENT                                     DESCRIPTION

 FWS Agreement,           The agreement requires revenues earned from timber sales, land
 Effective December 23,   leases, and other land management activities to be treated as program
 2004 (applies to the     income and to be deposited and tracked in the resources management
 Department’s             land account.
 approximately 100,000
 acres of wildlife        The agreement also requires the Department to report program
 management areas)        income to the FWS on the financial status reports and to use the
                          additive method for reporting program income.


The Department’s accounting records show that it collected miscellaneous income of
$381,552 during SFY2005, including $87,152 in program income. The Department
also earned $49,789 from timber sales in SFY2005. We identified the following
problems with the Department’s accounting for program income.

    • The Department did not deposit into the resources management land account the
      $49,789 in timber revenue earned. The Department should have done so, to
      comply with requirements from the State legislature. The Department also
      failed to categorize this revenue as program income, as required under the 2004
      agreement with FWS.

    • The Department did not report to FWS any of the $136,941 of program income
      earned under grant W-81-D-19 (including the $87,152 identified in the
      accounting system as program income and the $49,789 from timber sales).

    • The Department did not have documentation to demonstrate whether any of the
      remaining miscellaneous income of $294,400 ($381,552 less the $87,152
      recorded as program income) should have been deposited into the resources
      management land account and reported as program income.

Current Department staff did not know the source of the program income recorded in
the resource land management account and were unaware that they should have
reported program income to FWS on the financial status reports. We believe that staff
turnover contributed to the problem. Department officials told us that the individual
who maintained the accounting records for grant W-81-D-19 left the Department. The
officials also told us that in November 2005, they sent cash receipts supporting the
miscellaneous income received to the NRSC as part of a reorganization that centralized
the accounting function. However, NRSC officials could not locate the receipts.

Subsequent to our audit fieldwork, Department officials agreed that the program income
related to grant W-81-D-19 should have been reported on the financial status report.
Officials provided us a copy of an amended report which shows the program income.
Additionally, based on additional information NRSC officials provided after our
fieldwork ended, we determined the $294,400 was not program income. However, the
Department should maintain adequate documentation to support its determination of
whether revenue received is or is not program income.

                                         10
Recommendations

We recommend that FWS require the Department to:

1.       issue a policy memorandum that reinforces the need to deposit all revenues
         generated by land management activities into the resources management land
         account as program income,

2.       maintain appropriate documentation for each of the deposits, and

3.       report all program income to FWS on the financial status reports.

NRSC Response

NRSC officials did not specifically concur or not concur with the three recommendations.
Officials did state that the Department and NRSC have reinforced the policy that all
program income generated by land management activities be deposited to the account
established specifically to track these revenues. Officials also stated that it is the policy
of both the Department and NRSC that appropriate documentation should be retained to
support each deposit amount into this account. Officials further stated that the program
income related to grant number W-81-D-19 was resolved with the Department’s filing of
an amended financial status report. Officials indicated that they believe the
recommendations were implemented.

FWS Response

FWS regional officials concurred with the findings and recommendations and stated that
they would work with the State to develop a corrective action plan that will resolve all of
the findings.

OIG Comments

FWS regional management concurs with the recommendations and NRSC indicated that
they have taken actions to address the three recommendations. However, additional
information is needed in the corrective action plan, including:

     •     the (targeted) completion dates,

     •     titles of officials responsible for the specific actions taken or planned to resolve
           and implement the recommendations, and

     •     verification that FWS officials reviewed and approved the actions taken by the
           Department and NRSC.




                                              11
C.   Inadequate Controls for Documenting In-Kind Contributions

     The Acts require States to expend at least 25 percent of grant costs using non-Federal
     funds. The Department used the value of volunteer instructor hours as the State share of
     costs on hunter/trapper education program grants. States may use such in-kind (noncash)
     contributions to meet the State “matching” requirement. However, it took the
     Department several months to provide adequate documentation to support the $350,313
     in in-kind contributions claimed. We therefore concluded that the Department had
     inadequate controls to ensure it accumulated adequate in-kind contributions to meet the
     State matching requirement.

     To comply with federal regulations (2 C.F.R. § 225.55 C1(j)), the Department must
     adequately document both the federal and State share of grant expenses. When claiming
     volunteer services as in-kind (non-cash) contributions to meet the State share of costs,
     they must document the value of those contributions using the same method used to
     support regular personnel costs, to the extent feasible (see 43 C.F.R. § 12.64(b)(6)).

     Department personnel calculated the value of in-kind contributions by multiplying an
     hourly rate by the hours volunteered. Department officials were initially unsure of which
     of two different hourly billing rates were used in the calculation of in-kind contributions.

     The Department also initially provided us with three sources of information to attempt to
     support the claimed hours volunteered: volunteer instructor time sheets, summary reports
     prepared by each chief instructor of total hours worked by all volunteers for each class,
     and a database containing the number of volunteer hours. We found the following
     problems with these supporting documents:

       • Department personnel could not locate all the volunteer instructor time sheets.

       • Volunteer instructor time sheets listed different hours than those recorded on the
         summary reports.

       • Information in the database was not reliable because the accumulated hours recorded
         in it were not reconciled to the hours shown on the volunteer instructor time sheets.

     To comply with 43 C.F.R. § 12.64(b)(6), only the hours recorded by individual
     volunteers and certified by the chief instructor should be included as in-kind match.

     After we notified the Department and FWS of our potential finding in this area, the
     Department provided us with the hourly rates used and with a sufficient number of time
     sheets to support the amounts claimed as the State matching share on the financial status
     reports. However, without adequate controls and processes to document up-front the in-
     kind contributions claimed, the Department is at risk of not incurring its required share of
     State costs under the grants.




                                              12
     Department and NRSC officials told us that the Department developed record-keeping
     procedures (dated March 21, 2007) and reinforced existing policy with its program staff
     on the importance of maintaining proper documentation.

     Recommendation

     We recommend that FWS review the Department’s March 21, 2007 procedures to ensure
     the procedures will adequately a) limit the amount claimed as the in-kind State matching
     share of costs on the hunter/trapper education program grants to those volunteer
     instructor hours that are certified on individual timesheets and b) ensure Department
     personnel use the appropriate hourly billing rates.

     NRSC Response

     NRSC officials stated that the Department concurred with the recommendation. Officials
     also stated that the Department had developed procedures for in-kind contributions.

     FWS Response

     FWS regional officials concurred with the finding and recommendation and stated that
     they would work with the State to develop a corrective action plan that will resolve all of
     the findings.

     OIG Comments

     While FWS regional management concurs with the recommendation, additional
     information is needed in the corrective action plan, including:

        •   the completion dates,

        •   titles of officials responsible for the specific actions taken to resolve and
            implement the recommendation, and

        •   verification that FWS officials reviewed and approved the actions taken by the
            Department.

D.   No Documentation to Support Drawdowns

     Grantees are required to expend both the federal and State matching share of grant costs
     before they request reimbursement for (draw down) the federal share of costs (50 C.F.R.
     § 80.16). In other words, FWS may only reimburse, rather than fund up front, grant
     expenses. Federal regulations require grantees to maintain records for 3 years (43 C.F.R.
     § 12.82). Department personnel were unable to provide documentation to demonstrate
     that they incurred the grant costs before they actually drew down the federal share of
     costs.




                                              13
Officials told us the accountant who originally prepared the documentation for the
drawdowns no longer works for the Department. They also told us the documents
supporting the drawdowns for SFYs 2004 and 2005 were sent to NRSC, an agency
outside the Department, because the accounting function was transferred to that agency.
However, neither NRSC nor the Department could locate the drawdown information.

Although the Department could not demonstrate that they complied with requirements on
the timing of reimbursements (after expenses were incurred), they did maintain
documentation on the items on which they expended grant funds. We tested 95 items
valued at $923,664 and found the Department expended grant funds for allowable
purposes. We are therefore not questioning the amounts claimed for reimbursement.

Subsequent to our audit fieldwork, Department and NRSC officials stated that they would
work with FWS to verify that both the federal and State share of costs were incurred at
the time funds were drawn. They also stated that they established and implemented
procedures (dated May 2007) to ensure that all future draws are fully documented before
funds are drawn. They further stated that NRSC would maintain such records for 3 years
after the last action of each grant.

Recommendations

We recommend that FWS:

1. work with the Department to determine if they had incurred both the federal and State
   share of costs at the time they drew down funds, and

2. review the Department’s May 2007 procedures to determine if the procedures
   adequately ensure that sufficient documentation is available to demonstrate they
   incurred the federal and State share of costs before drawdowns are made.

NRSC Response

NRSC officials stated that the Department concurred with the finding. Officials also
stated that they have established and implemented procedures for drawdowns.

FWS Response

FWS regional officials concurred with the findings and recommendations and stated that
they would work with the State to develop a corrective action plan that will resolve all of
the findings.

OIG Comments

FWS regional management concurs with the recommendations, and NRSC officials
indicated action has been taken to address recommendation D.2. However, they did not
address recommendation D.1. The corrective action plan should contain:



                                        14
        •   actions taken or proposed to address both recommendations D.1 and D.2,

        •   (targeted) completion dates,

        •   titles of officials responsible for the specific actions taken or planned to resolve
            and implement the recommendations, and

        •   verification that FWS officials reviewed and approved the actions taken by the
            Department and NRSC.

E.   Inaccurate Real Property Records

     Federal regulations and FWS guidance require States to maintain records on land
     purchased with Federal Assistance Program funds, and to ensure control of land
     purchased with grant funds and license revenue. The Department’s real property (land)
     records did not always identify the source of funding used to acquire lands and did not
     match FWS land records. The Department’s records identified $6 million in lands
     purchased with “Federal” funds, while FWS records show the Department spent $4
     million in Federal Assistance Program funds on land. The Department’s land records
     also failed to identify any lands purchased with license revenues.

     Under 50 C.F.R. § 80.19, each State must maintain current and complete property records
     in accordance with the requirements contained in the FWS Manual (FW) and OMB
     Circular A-102. In addition, 50 C.F.R. § 80.18 and 522 FW 1.16 require each State to
     maintain control of assets acquired with Federal Assistance Program grant funds and to
     assure that they are used for the purpose for which they were acquired. Further, 50
     C.F.R. § 80.4 extends the same requirements to assets acquired with license revenues.

     The Department has not (1) developed policies and procedures that require land
     acquisitions to be identified by the source of funding or (2) reconciled their land records
     with FWS land records. As a result, the Department’s land records are not adequate to
     ensure lands purchased with Federal Assistance Program funds are being used for their
     intended purposes, and whether any lands were purchased with license revenues.

     Subsequent to our audit fieldwork, Department officials agreed that many of the older
     land records were incomplete. They also agreed to:

         • develop policies and procedures requiring the identification of the funding sources
           used for all land acquisitions;

         • review historical records to 1) identify the funding sources for current land
           acquisitions, 2) add missing information, and 3) confirm existing information;

         • work with the FWS and the Maine Office of the State Controller (OSC) to
           establish a complete and accurate list of all land acquired with Federal Assistance
           Program grant funds and license revenues; and



                                              15
    • reconcile its land records with the FWS land records and the OSC land records.

Recommendations

We recommend that FWS:

1. review and approve the policies and procedures that require the identification of the
   source of funding used for all land acquisitions, and

and require the Department to:

2. update its land records and identify all lands acquired with Federal Assistance
   Program grant funds and license revenues and

3. reconcile its land records with FWS land records.

NRSC Response

NRSC officials concurred with the finding. Officials stated that the Department had: (1)
developed policies and procedures that require the identification of the source of funding
and (2) worked with FWS to establish a list of lands acquired with Federal Assistance
Program grant funds. Officials also stated that the Department will reconcile its land
records with FWS land records and to OSC land records. The targeted completion date is
June 30, 2008.

FWS Response

FWS regional officials concurred with the findings and recommendations and stated that
they would work with the State to develop a corrective action plan that will resolve all of
the findings.

OIG Comments

FWS regional management concurs with the recommendations and NRSC indicated that
the Department has taken actions to address the first two recommendations (and will take
action to address the third recommendation). The corrective action plan should also
contain:

   •   the (targeted) completion dates,

   •   titles of officials responsible for the specific actions taken or planned to resolve
       and implement the recommendations, and

   •   verification that FWS officials reviewed and approved the actions taken or
       planned by the Department.




                                          16
F.   Duplicate and Invalid License Holders Not Removed From Certification

     States must report the number of paid hunting and fishing license holders and certify the
     accuracy of their counts (50 C.F.R. §§ 80.10 (a) and (b)). They may count each
     individual only once (50 C.F.R. § 80.10 (c)(5)). The Department used adjustment factors
     from a 1996 statistical survey to eliminate potential duplicate license holders when it
     prepared its annual hunting and fishing license certifications for license years ended
     December 31 of 2004 and 2005. However, the survey is outdated and may no longer be
     valid. In addition, the certifications did not include adjustments to eliminate all lifetime
     licensees that no longer remain license holders, although the regulations require them to
     do so (50 C.F.R. § 80.10 (c)(3)).

     The FWS Manual (522 FW 2.7(1), Grantee Administration) recommends that surveys to
     determine and adjust for duplicate license holders be conducted every 5 years or sooner,
     if there is a change in the license structure. Department officials told us that they
     continued using the 1996 adjustment factors to eliminate duplicate hunting and fishing
     license holders because they were not aware of the requirement to update the surveys at
     least once every 5 years. They also told us that they were not aware of the need to adjust
     for the number of lifetime licenses because they only began selling these licenses in
     2000.

     The number of paid license holders reported by the Department could therefore be
     overstated. Because the State receives its annual sport fish and wildlife apportionments
     of grant funds based, in part, on the number of license holders, we believe that accurate
     counts are necessary to assure that each State receives its fair share of funds.

     Subsequent to our audit field work, Department officials informed us that they would (1)
     work with FWS to revise the adjustment factors and (2) perform a review of the June 30,
     2006 certification to ensure that lifetime license holders are accurately counted.

     Recommendations

     We recommend that FWS require the Department to:

     1. revise the current adjustment factors used to eliminate duplicate license holders, and

     2. ensure that future hunting and fishing license certifications include adjustments for
        the number of lifetime license holders to eliminate ones that are no longer active.

     NRSC Response

     NRSC officials stated that the Department concurs with the recommendation. Officials
     stated that the Department completed an analysis of the 2006 license database for
     duplicate license holders and that the 2006 license certification reflects the new
     adjustment factors derived from this analysis. Officials further stated that the 2006
     license certification included adjustments, based on a review of Maine actuarial tables,
     which eliminated lifetime license holders that may no longer be active.


                                              17
FWS Response

FWS regional officials concurred with the findings and recommendations and stated that
they would work with the State to develop a corrective action plan that will resolve all of
the findings.

OIG Comments

While FWS regional management concurs with the recommendations and NRSC
indicated that the Department has taken corrective actions to address the two
recommendations, additional information is needed in the corrective action plan,
including:

   •   the completion dates,

   •   titles of officials responsible for the specific actions taken to resolve and
       implement the recommendations, and

   •   verification that FWS officials reviewed and approved of the actions taken by the
       Department.




                                         18
                                                      Appendix 1
                                                       Page 1 of 2


MAINE DEPARTMENT OF INLAND FISHERIES AND WILDLIFE
     FINANCIAL SUMMARY OF REVIEW COVERAGE
           JULY 1, 2003, THROUGH JUNE 30, 2005


    Grant Number    Grant Amount      Claimed Costs
      F-28-P-27        $2,600,700        $2,449,730
      F-28-P-28         2,600,700         2,197,456
      F-28-P-29         2,641,000         2,325,611
      F-30-L-41           142,000           142,855
      F-30-L-42            43,000            29,527
      F-30-L-43            64,600            68,156
      F-30-L-44            93,000                 0
      F-30-L-45           102,500            98,697
      F-30-L-46           213,000                 0
      F-30-L-47           880,000                 0
      F-30-L-49           259,500            12,380
      F-30-L-50            42,900            46,519
      F-30-L-51            55,300                 0
      F-31-D-30           214,400            24,478
      F-31-D-36           143,528           143,825
      F-31-D-37            57,000            55,602
      F-31-D-38            40,000            32,441
      F-31-D-40            16,800             5,134
      F-31-D-41            36,000            35,937
      F-31-D-42            50,000            50,275
      F-31-D-43           105,000            57,997
      F-31-D-44            42,800            42,812
      F-37-L-3             41,600                 0
      F-38-D-12            52,000            22,566
      F-38-D-13            60,000            18,778
      F-38-D-14            60,000            11,572
      FWA-1-P-28          296,000           147,247
      FWA-1-P-29          296,000            95,649
      FWA-1-P-30          296,000           127,969
      W-79-S-32           326,668           296,009
      W-79-S-33           326,668           333,996
      W-79-S-34           352,000           431,337
      W-81-D-17         1,570,056         1,319,796
      W-81-D-18         1,200,000         1,153,491
      W-81-D-19         2,020,000         1,497,417
      W-82-R-17         1,068,000           923,942


                          19
                                                      Appendix 1
                                                       Page 2 of 2


MAINE DEPARTMENT OF INLAND FISHERIES AND WILDLIFE
     FINANCIAL SUMMARY OF REVIEW COVERAGE
           JULY 1, 2003, THROUGH JUNE 30, 2005


    Grant Number    Grant Amount      Claimed Costs
      W-82-R-18         1,068,000         1,008,948
      W-82-R-19         1,068,000           957,448
      W-83-C-17           450,200           379,068
      W-83-C-18           292,000           396,514
      W-83-C-19           292,000           398,852
      TOTALS          $21,578,920       $17,340,031




                          20
                                                  Appendix 2


MAINE DEPARTMENT OF INLAND FISHERIES AND WILDLIFE
                 SITES VISITED
                      Headquarters

              Division of Fisheries, Augusta
              Division of Wildlife, Augusta


                     Regional Office

                 Fisheries Division, Gray


                       Hatcheries

           Governor Hill Fish Hatchery, Augusta
            Palermo Rearing Station, Palermo


              Wildlife Management Areas

               Brownfield Bog, Brownfield
                Mendall Marsh, Frankfort


                   Water Access Sites

                 Caesar Pond, Bowdoin
             Cobbosseecontee Lake, Winthrop
             Merrymeeting Bay, Bowdoinham


                        Other
                Maine Wildlife Park, Gray




                           21
                                                                                Appendix 3


            MAINE DEPARTMENT OF INLAND FISHERIES AND WILDLIFE
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


Recommendations                    Status                          Action Required
A.1, A.2, B.1, B.2,   FWS management concurs          Additional information is needed in the
B.3, C, D.1, D.2,     with the recommendations, but   corrective action plan, including the
E.1, E.2, E.3, F.1,   additional information is       actions taken or planned to implement
and F.2               needed as outlined in the       the recommendations, targeted
                      “Action Required” column.       completion date(s), the title of
                                                      official(s) responsible for
                                                      implementation, and verification that
                                                      FWS officials reviewed and approved
                                                      of the actions taken or planned by the
                                                      Department and NRSC. We will refer
                                                      recommendations not resolved and/or
                                                      implemented at the end of 90 days
                                                      (after March 10, 2008) to the Assistant
                                                      Secretary for Policy, Management and
                                                      Budget (PMB) for resolution and/or
                                                      tracking of implementation.




                                          22
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
